( U ) T H I S PA G E I N T E N T I O N A L LY L E F T B L A N K




                     DODIG-2013-142 | ii
                                          Results in Brief
                                          DoD Evaluation of Over-Classification of National Security
                                          Information


September 30, 2013                                       We also concluded that some policies, procedures, rules, regulations or
Executive Summary of DODIG-2013-142                      management practices may be contributing to persistent misclassification of
                                                         material. While we did find some instances of over-classification, we do not
What We Did                                              believe that those instances concealed violations of law, inefficiency, or
                                                         administrative error; prevented embarrassment to a person, organization, or
This is the first of two reports that Public             agency; restrained competition; or prevented or delayed the release of
Law     111-258,     Section       6(b)     requires,    information not requiring protection in the interest of national security.
mandating Inspectors General of Federal                  However, we did find several instances where the inaccurate use of
departments, or agencies with an officer or              dissemination control and handling markings could unnecessarily restrict
employee who is authorized to make                       information sharing.
original classifications, to:             (A) assess
whether applicable classification policies,              Many of the issues we found were similarly reflected in organizational self-
procedures, rules, or regulations have been              assessments and fundamental classification guidance review results,
adopted,      followed,        and         effectively   demonstrating that DoD is aware of weaknesses and is striving to improve.
administered; and (B) identify policies,                 The most common discrepancy was incorrect marking of documents. Many
procedures,        rules,      regulations,        or    of our interviewees commented on the availability and robustness of
management         practices       that    may     be    training.
contributing to persistent misclassification
of material. In this report, we address eight            While room for improvement still exists, DoD continues to make advances in
areas      associated       with      classification     program management, reporting costs, reporting of security classification
management          and      control         marking     activities, and in advancing policies that will help constrain over-
programs. For the second report due under                classification.
Public Law 111-258 on September 30, 2016,
we will focus on follow-up efforts to                    What We Recommend
recommendations outlined in this report.
                                                         We recommend that the Under Secretary of Defense for Intelligence and for
                                                         Acquisition, Technology, and Logistics carry out the recommendations
What We Found
                                                         outlined in this report and continue to leverage the new Defense Security
We found that applicable classification                  Enterprise, especially with regard to ensuring that Original Classification
policies, procedures, rules, and regulations             Authorities are fully engaged and accountable.
have been adopted; however, in some
circumstances, they had not been followed                Management Comments and Our Response
or effectively administered.
                                                         Both the Under Secretary of Defense for Intelligence and the Under Secretary
                                                         for   Acquisition,   Technology,   and   Logistics   concurred   with   the
                                                         recommendations; however, management did not provide information to
Visit us on the web at www.dodig.mil                     identify what actions will be taken and the date on which recommendations
                                                         will be completed. Therefore, we request additional comments. Please see
                                                         the recommendations table on the back of this page.
                                                         DODIG-2013-142 | iii
Recommendations Table
                                         Recommendations             No Additional
            Management
                                         Requiring Comment         Comments Required
  Under Secretary of Defense for      A1, A2, B, C1, C2, C3, C4,
  Intelligence                        D1, D2
  Under Secretary of Defense for
  Acquisition, Technology, and        C1, C2, C3, C4
  Logistics
* Please provide comments by October 30, 2013




                                   DODIG-2013-142 | iv
Acronyms and Abbreviations
       C.F.R.    Code of Federal Regulations
          DNI    Director of National Intelligence
          DSE    Defense Security Enterprise
      DSEAG      Defense Security Enterprise Advisory Group
  DSE ExCom      Defense Security Enterprise Executive Committee
          DSS    Defense Security Service
         E.O.    Executive Order
         GAO     Government Accountability Office
            IC   Intelligence Community
           IG    Inspector General
        ISOO     Information Security Oversight Office
       JWICS     Joint Worldwide Intelligence Communication System
         OCA     Original Classification Authority
        ODNI     Office of the Director of National Intelligence
    OUSD(I)      Office of the Under Secretary of Defense for Intelligence
         OSD     Office of the Secretary of Defense
          P.L.   Public Law
         SAO     Senior Agency Official
           SF    Standard Form
    SIPRNET      SECRET Internet Protocol Router Network
      USD(I)     Under Secretary of Defense for Intelligence




                                 DODIG-2013-142 | v
Distribution:

Senate Committee on Homeland Security and Governmental Affairs

Senate Select Committee on Intelligence

Senate Committee on Appropriations, Subcommittee on Defense

House Committee on Homeland Security

House Committee on Appropriations, Subcommittee on Defense

House Committee on Oversight and Government Reform

House Permanent Select Committee on Intelligence

Director, Information Security Oversight Office




                                DODIG-2013-142 | vi
Table of Contents
Introduction ....................................................................................................................1
Objective...........................................................................................................................1
Background .....................................................................................................................1
Scope and Methodology .............................................................................................3
Finding A: Effectiveness of Security Program Management .....................6
   Conclusion...................................................................................................................................................... 17
   Recommendations ...................................................................................................................................... 18

Finding B: Effectiveness of Original Classification Authorities ............ 20
   Conclusion………………………………………………………………………………………… ......................... .22
   Recommendations……………………………………………………………………………… ......................... 22

Finding C: Effectiveness of Component Statistical and Cost
Reports ........................................................................................................................... 23
   Conclusion……………………………………………………………………………………………....................... 30
   Recommendations………………………………………………………………………………… ..................... 30

Finding D: Effectiveness of DoD Security Education and Training ..... 32
   Conclusion……………………………………………………………………………………………… ................... 36
   Recommendation……………………………………………………………………… ...................................... 36

Appendix A: Observation ....................................................................................... 37
   Observation A. Effectiveness of Policies for Developing Classification Decisions…… .... 37
   Conclusion……………………………………………………………………………………… ...........................…44
   Observation B. Classification by Derivative Classifiers……………………… .............................. 45
   Conclusion…………………………………………………………………………… ............................................ 47
   Observation C. Effectiveness of Self-Inspection Programs ........................................................ 48
   Conclusion…………………………………………………………………………… ............................................ 55
   Observation D. Intelligence Community Cross-Cutting Issues………………… ....................... 55
   Conclusion...................................................................................................................................................... 57




                                                            DODIG-2013-142 | vii
Appendix ...................................................................................................................... 58
   Computer-Processed Data…………………………………………………… ............................................. .58
   Use of Technical Assistance………………………………………………… .............................................. .58
   Prior Coverage……………………………………………………………………… .......................................... .58

Center for Development of Security Excellence (CDSE) Course
Offerings ........................................................................................................................ 59
Management Comments .............................................................................. 62
   Under Secretary of Defense for Intelligence Comments………………… …………………...…...62
   Under Secretary of Defense for Acquisition, Technology and Logistics............................... 63




                                                DODIG-2013-142 | viii
                                                                                  Introduction




Introduction
Objective
In accordance with Public Law (P.L.) 111-258, Section 6(b), and in consultation with the
Information Security Oversight Office (ISOO), 1 our objective is to evaluate the policies,
procedures, rules, regulations, or management practices that may be contributing to
persistent misclassification of material; and ascertain if the applicable classification
policies, procedures, rules, and regulations have been adopted, followed, and effectively
administered. This project will facilitate the timely reporting required by the Public
Law to address efforts by DoD to decrease over-classification; and promote information
sharing and transparency in operations in compliance with the law.

Background
Executive orders since 1940 have directed government-wide classification standards
and procedures. On December 29, 2009, President Obama signed Executive Order (E.O.)
13526, “Classified National Security Information,” which establishes the current
principles, policies, and procedures for classification. The E.O. prescribes a uniform
system for classifying, safeguarding, and declassifying national security information.
E.O. 13526 also reflects the President’s expressed belief that this nation’s progress
depends on the free flow of information, both within the Federal Government and to the
American people. Accordingly, protecting information critical to national security and
demonstrating a commitment to open government through accurate and accountable
application of classification standards and routine, secure, and effective declassification
are equally important priorities.


Under E.O. 13526, classified information that has been determined to require protection
against unauthorized disclosure to prevent damage to national security must be marked
appropriately to indicate its classified status.




1
  ISOO is responsible to the President for policy and oversight of the government-wide security
classification system and the National Industrial Security Program. ISOO is a component of the
National Archives and Records Administration and receives policy and program guidance from
the National Security Council.



                                    DODIG-2013-142 | 1
                                                                                    Introduction



Information may be originally classified 2 only by Original Classification Authorities
(OCAs): these are individuals authorized in writing, either by the President, the Vice
President, or agency heads or other officials designated by the President, to initially
classify information.     OCAs must receive training on proper classification prior to
originally classifying information and at least once per calendar year after that. By
definition, original classification precedes all other aspects of the security classification
system, including derivative classification, 3 safeguarding, and declassification.
Information on the six-step process for determining an original classification decision is
detailed in Appendix A, Observation A.


All personnel with an active security clearance can perform derivative classification,
unless an agency limits this activity to specific personnel. All personnel who apply
derivative classification markings must receive training on the proper application
principles of E.O. 13526 prior to derivatively classifying information and at least once
every two years thereafter. Information may be derivatively classified from a source
document or documents, or by using a classification guide.


Authorized holders of information (including authorized holders outside the classifying
organization) who, in good faith, believe that its classification status is improper are
encouraged and expected to challenge the classification status of information.


Federal Government organizations that create or hold classified information are
responsible for its proper management. Classification management includes developing
security classification guides (SCGs) that an OCA uses to provide a set of instructions to
derivative classifiers. These instructions identify elements of information on a specific
subject that must be classified and the classifications’ level and duration for each
element.


One of the most effective ways to protect classified information is through the
application of standard classification markings or dissemination control markings.
Effective program management also includes comprehensive mandatory training for
classifiers and a robust self-inspection program.

2
  Original classification is an initial determination that information requires, in the interest of
national security, protection against unauthorized disclosure.
3
  Derivative classification is incorporating, paraphrasing, restating, or generating in new form
information that is already classified, and marking the newly-developed material consistent with
the classification markings that apply to the source information. It includes the classification of
information based on classification guidance. The duplication or reproduction of existing
classified information is not derivative classification.



                                     DODIG-2013-142 | 2
                                                                                 Introduction



Federal departments and agencies also may have systems of restrictive caveats that can
be added to a document in the form of dissemination control and handling markings.
These restrictions are not classifications in and of themselves; rather, they identify the
expansion or limitation on distributing the information. These markings are in addition
to, and separate from, the level of classification. Only those external dissemination
control and handling markings approved by ISOO -- or approved by the Director of
National Intelligence (DNI) for intelligence and intelligence-related information--may be
used by agencies to control and handle the dissemination of classified information
under agency regulations, policy directives, and guidelines which are issued under E.O.
13526. Such approved markings must be uniform and binding on all agencies and must
be available in a central registry.


Two significant changes to the classification program under the issuing of E.O. 13526
involve making classified information accessible, to the maximum extent possible, to
authorized holders.       If significant doubt exists about the appropriate level of
classification, information shall be classified at the lower level. Additionally, if significant
doubt exists about the need to classify information, it should not be classified.

The term “over-classification” is not defined in national policy. E.O. 13526 defines
“classification” and “declassification,” but not this term. During our evaluation and in
this report, we have used a working definition of “over-classification,” which ISOO
supplied: the designation of information as classified, when the information does not
meet one or more of the standards for classification under section 1.1 of E.O. 13526.


Scope and Methodology
This evaluation was conducted from October 2012 to September 2013, in accordance
with Quality Standards for Inspection and Evaluation that the Council of the Inspectors
General on Integrity and Efficiency issued. Those standards require that we plan and
perform the evaluation to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our evaluation objectives.
To accomplish our evaluation, we:


        •   examined fundamental classification guidance review (FCGR) results;

        •   examined self-inspection reporting results;

        •   examined Standard Forms 311, “Agency Security Classification
            Management Program Data”;



                                      DODIG-2013-142 | 3
                                                                             Introduction



       •     reviewed relevant policies, regulations, and related studies;

       •     reviewed 1,260 classified documents;

       •     reviewed 342 SCGs;

       •     conducted a survey of Defense Component security managers, and
             original and derivative classifiers;

       •     interviewed 21 original classification authorities and 129 derivative
             classifiers;

       •     interviewed key Department officials responsible for security training
             and related policy development and implementation; and

       •     interviewed officials responsible for the Department’s information
             security program.

We also used an evaluation guide that a working group of participating IGs, led by the
OIG DoD, prepared for all IG offices participating in this government-wide effort on
behalf of the Council of the Inspectors General on Integrity and Efficiency.          The
evaluation guide was intended to meet P.L. 111-258 requirements regarding the
responsibilities of each participating department and agency. The working group was
formed to ensure consistency in the evaluative process, comparable reporting, and the
ability to compare results across agencies. The evaluation guide is on the website:
www.ignet.gov/CIGIE Reports and Periodicals/List by Year/2013/, “A Standard User’s
Guide for Inspectors General Conducting Evaluations under Public Law 111-258, the
Reducing Over-Classification Act.”


As the Act directs, we consulted with ISOO and coordinated throughout the evaluation
with other IG offices with the goal of ensuring that our evaluations followed a consistent
methodology to allow for cross-agency comparisons.


The evaluation focused on eight areas: General program management responsibilities;
OCAs; original classification; derivative classification; self-inspections; reporting;
security education and training; and Intelligence Community (IC) cross-cutting issues.


To discern whether departmental policies and practices were consistent with E.O.
13526 and 32 C.F.R., Part 2001, we used the following evaluation tools that ISOO
developed:



                                    DODIG-2013-142 | 4
                                                                             Introduction



         •   an agency regulation implementing assessment tool;

         •   methodology for determining whether an original classification decision
             is appropriate;

         •   original classification authority interview coverage;

         •   methodology for determining the appropriateness of a derivative
             classification decision; and

         •   derivative classifier interview coverage.

We received results from evaluations by the Department of the Army, the Defense
Threat Reduction Agency, and the Naval Audit Service, who used their own procedures
to write findings and recommendations. The DoD OIG did not verify the information
provided.

We evaluated the information security programs of the following organizations:

         •   Department of the Navy;

         •   Department of the Air Force; and

         •   Combatant Commands.

We evaluated these departments and entities because they represented organizations,
as described in E.O. 13526, that would have information eligible for classification, the
unauthorized disclosure of which could reasonably be expected to cause identifiable or
explainable damage to the national security.

We did not evaluate declassification issues because ISOO recently completed its five-year
on-site assessment of agency declassification programs. Details are in the 2012 Annual
Report       to    the     President,       of    June   20,     2013,    and      is      at
http://www.archives.gov/isoo/reports/.           This oversight and assistance program
garnered significant measureable improvements in the quality of declassification
reviews that executive branch departments and agencies conducted. ISOO will continue
its assessment program in a manner that sustains this high level of quality.
Assessments focused on three areas of concern:            missed equities, inappropriate
referrals, and improper exemptions.




                                   DODIG-2013-142 | 5
                                                                                  Finding A




General Program Management
In a June 2006 evaluation of DoD’s information security program, the Government
Accountability Office (GAO) found that a lack of oversight and inconsistent
implementation of the DoD’s information security program increased the risk of
misclassification.    Misclassifying national security information impedes effective
information sharing, can provide adversaries with information to harm the United
States and its allies, and can cause the U.S. to incur millions of dollars in avoidable
administrative costs.      GAO identified weaknesses in the areas of classification
management training, self-inspections, and security classification guide management.


Since August 2010, the Office of the Deputy Inspector General for Intelligence and
Special Program Assessments, OIG, DoD, has conducted a series of assessments of
Security within DoD, as follows: Tracking and Measuring Security Costs; Training,
Certification and Professionalization; Security Policy; and the soon-to-be published
Classification and Grading of Security Positions. We will continue to do oversight of
DoD’s security programs.         We will update the progress of security program
management in our 2016 report under P.L. 111-258.


This section will focus on the core issues related to managing the classified national
security information program.          General program management refers to the
responsibilities of departments and agencies carrying out the program under E.O.
13526.       These responsibilities include the agency head demonstrating personal
commitment to the program, committing necessary resources to ensure its effective
implementation, and appointing a senior agency official (SAO) to direct and administer
the program. The SAO’s responsibilities include:


         •    overseeing the program established under E.O. 13526;

         •    issuing implementing regulations;

         •    establishing and maintaining an on-going self-inspection program;

         •    ensuring that designating and managing classified information is
              included as a critical rating element in the systems used to rate OCAs,
              security managers or security specialists, and all other personnel whose
              duties significantly involve creating or handling classified information,
              including those who apply derivative classification markings;




                                   DODIG-2013-142 | 7
                                                                                 Finding A



       •   establishing a secure capability to receive information, allegations, or
           complaints regarding over-classification or incorrect classification
           within the agency and to provide guidance as needed to personnel on
           proper classification; and

       •   establishing and maintaining security education and training programs.

Security is a mission-critical function of DoD, and properly executed, has a direct impact
on all DoD missions and capabilities and on the national defense. We reviewed the
classification management program and the use of dissemination control markings to
ensure the following:


       •   that necessary resources have been dedicated for effectively carrying out the
           program;
       •   that agency records systems are designed and maintained to optimize the
           appropriate sharing and safeguarding of classified information; and
       •   that an SAO has been designated to direct and administer the program.


The Under Secretary of Defense for Intelligence (USD(I)) is the Principal Staff Assistant
and advisor to the Secretary and Deputy Secretary of Defense regarding security. In this
capacity, the USD(I) exercises the Secretary of Defense’s authority, direction, and
control over the Defense Agencies and DoD Field Activities that are Defense security
Components and exercises planning, policy, and strategic oversight over all DoD
security policy, plans, and programs. The USD(I) serves as the DoD Senior Security
Official under E.O. 13526, and advises the Secretary of Defense, the Secretaries of the
Military Departments, the Chairman of the Joint Chiefs of Staff, and the Heads of other
DoD Components on developing and integrating risk-managed security and protection
policies and programs, except for Nuclear Physical Security.


The USD(I) also develops, coordinates, and oversees carrying out DoD policy, programs,
and   guidance    for   personnel,      physical,   industrial,   information,   operations,
chemical/biological, and DoD Special Access Program security, as well as research,
development, and acquisition protection.


To significantly enhance security program management and provide a governance
mechanism to bring about a united approach to strategic oversight and advocacy of DoD
security capabilities, the USD(I) published DoD Directive 5200.43, “Management of the
Defense Security Enterprise,” which:




                                 DODIG-2013-142 | 8
                                                                                  Finding A




   •    establishes policy and assigns responsibilities for managing the DSE;
   •    establishes the DSE Executive Committee (DSE ExCom) and provides direction
        for a comprehensive DSE policy and oversight framework and governance
        structure to safeguard personnel, information, operations, resources,
        technologies, and facilities against harm, loss, or hostile acts and influences;
   •    deconflicts the DSE from other DoD security-related functions, such as force
        protection, and provides for the alignment, synchronization, support, and
        integration of those related security functions;
   •    assigns responsibilities related to the DSE to the Defense Security Executive; and
   •    provides a common lexicon for the DSE.


Since the DSE’s creation, the USD(I) has advanced enterprise management of security by
chairing the DSE ExCom (the Deputy Under Secretary of Defense for Intelligence and
Security serves as the chair), and the DSE Advisory Group (DSEAG -- the Director,
Security Policy and Oversight Directorate, Office of the Deputy Under Secretary of
Defense for Intelligence and Security [DUSD(I&S)] serves as the chair).


The DSE ExCom:

    •   advises the USD(I), as the Defense Senior Security Official, on security policy
        and training; provides recommendations on key policy decisions and
        opportunities for standardization and improved effectiveness and efficiency;
        and on carrying out cross-functional security policy coordination;


    •   oversees carrying out the Defense security framework;


    •   approves the strategic plan and monitors its execution;

    •   commissions reviews and in-depth studies of security issues and, based on the
        results, makes recommendations for developing or improving policies,
        processes, procedures, and products to address pervasive, enduring, or
        emerging security challenges;

    •   reviews resource investments and priorities and recommends changes to the
        Defense security program to the USD(I), through the Defense Security
        Executive;




                                   DODIG-2013-142 | 9
                                                                                Finding A



    •   assists with developing a Defense security framework that integrates, across all
        security levels, personnel, physical, industrial, information, and operations
        security, as well as special access program security policy and critical program
        information protection policy.      This framework must align with, and be
        informed by, other DoD security and security-related functions (e.g.,
        counterintelligence, information assurance, nuclear physical security, chemical
        and biological agent security, foreign disclosure, security cooperation,
        technology transfer, export control, cyber security, anti-terrorism, force
        protection, mission assurance, critical infrastructure, and insider threat policy);


    •   provides a forum for identifying, documenting, and disseminating best
        practices, including those associated with security risk management; and


    •   identifies performance measures to be used to assess the effectiveness of the
        Defense security program and its contribution to mission success.


To focus on the most challenging enterprise security issues, the DSEAG charters project
teams, on an as needed basis, to develop solutions to some of the most pressing DSE
priorities. A few key initiatives being addressed by current project teams include
reforming the personnel security investigation process, quantifying security-related
costs across the Department, developing an enterprise-wide risk methodology,
establishing a Defense Security Enterprise Architecture, improving continuous
evaluation capabilities, and professionalizing the security workforce.


The Security Policy and Oversight Directorate has also established the Defense Security
Oversight and Assessment Program (DSOAP) to address an Office of the USD(I)
(OUSD(I)) strategic priority to put into operation Defense security policies and
transform the security community.        The program is a collaborative engagement
designed to assess the effectiveness of security policies in the operational environment.
Oversight visits enable OUSD(I) to:

    •   identify best practices and lessons learned for trend analysis and program
        improvement;

    •   develop and issue security policies that are current, operationally relevant,
        adaptable, and informed by an assessment of risk;




                                 DODIG-2013-142 | 10
                                                                                  Finding A



    •   execute an effective outreach and oversight program to improve security policy
        and inform the DSE strategic direction;

    •   identify and champion security best practices and enterprise capabilities; and

    •   capture Component issues with DoD security policy in order to improve policy
        (gaps, conflicts, lack of clarity).

As part of its strategic framework, the DSE has developed three key goals to aid in
making better risk-based mitigation decisions regarding threats and security
vulnerabilities related to all DoD assets across the DSE, as follows:


    •   standardize security functions across DoD to achieve synergistic execution and
        enhance operations;
    •   allocate security resources to demonstrate a return on investment; and
    •   improve individual performance to develop a cadre of highly-skilled security
        professionals


From a program management perspective, the DSE can begin to effectively address
many of its challenging security issues by collaborating with DoD senior leaders and
security subject matter experts, and through DSE members. These members are:


    •   the DoD Component security program executives designated by the Secretaries
        of the Military Departments and the Chairman of the Joint Chiefs of Staff;
    •   representatives of the Under Secretaries of Defense for:
            o   (Comptroller)/Chief Financial Officer;
            o   Acquisition, Technology, and Logistics;
            o   Policy; and
            o   Personnel and Readiness;
    •   the DoD Chief Information Officer;
    •   the Director of Administration and Management;
    •   the DoD General Counsel;
    •   the Director, DoD Special Access Program Central Office; and
    •   the Director, Counterintelligence Directorate, Office of the DUSD(I&S).




                                   DODIG-2013-142 | 11
                                                                               Finding A




Effectiveness of Classification Management Policies
and Control Marking Guidelines
Standardized classification and control markings are the primary means by which the IC
protects intelligence sources, methods, and activities. Properly applying and using
these markings promotes information sharing while allowing the information to be
properly safeguarded from inadvertent or unauthorized disclosure.           Agencies are
required to issue regulations to carry out their classified national security information
programs in accordance with E.O. 13526 and 32 C.F.R. Part 2001.

We used an “Agency Regulation Implementing Assessment Tool,” which ISOO provided.
The tool focuses on eight key areas for determining if applicable classification policies,
procedures, rules, and regulations have been adopted in accordance with E.O. 13526
and 32 C.F.R. Part 2001. On April 2, 2013, the USD(I) published DoD Manual 5200.45,
“Instructions for Developing Security Classification Guides,” and on February 24, 2012,
the USD(I) published DoD Manuals 5200.01, in four volumes:


   •   Volume 1 -- DoD Information Security Program: Overview, Classification, and
       Declassification;
   •   Volume 2 -- DoD Information Security Program: Marking of Classified
       Information;
   •   Volume 3 -- DoD Information Security Program: Protection of Classified
       Information; and
   •   Volume 4 -- DoD Information Security Program: Controlled Unclassified
       Information (CUI)


We mapped these issuances to E.O. 13526 and 32 C.F.R., Part 2001. As a result, we
found that policies were adopted at the Office of the Secretary of Defense-level. We
subsequently provided the regulation assessment tool to component-level IGs to map
Office of the Secretary of Defense-level issuances to the agency-level policy issuances.
We found that most agency policies had not yet been updated to reflect the guidance
provided in the four volumes of DoD Manuals 5200.01.


DoD Manual 5200.01, Volume 2, “Marking of Classified Information,” February 24, 2012,
Appendix 2 to Enclosure 4, discusses dissemination control markings for intelligence
information.




                                 DODIG-2013-142 | 12
                                                                                Finding A



Intelligence Community Directive (ICD) 710, “Classification Management and Control
Markings System,” June 21, 2013, governs the carrying out and oversight of the IC
classification management and control markings system, which provides the framework
for accessing, classifying, disseminating, and declassifying intelligence and intelligence-
related information to protect sources, methods, and activities. The IC markings system
is implemented and maintained through the Controlled Access Program Coordination
Office (CAPCO) Register and Manual.

ICD 710 applies to the IC and to such elements of any other department or agency, as
may be designated an element of the IC by the President or jointly by the DNI and the
head of the department or agency concerned. ICD 710 applies, under EO 13526, Section
6.2(b), to the handling of intelligence and intelligence-related information and, under
EO 13556, “Controlled Unclassified Information,” November 4, 2010, Section 6(b), to the
handling of unclassified intelligence or intelligence-related information that requires
safeguarding through dissemination controls. Also see Appendix A, Observation D.


Performance Evaluations
E.O. 13526 requires that the performance contract or other system used to rate civilian
or military personnel performance includes the designating and managing of classified
information as a critical element or item to be evaluated in the rating of OCAs, security
professionals, or other personnel whose duties significantly involve handling classified
information, including derivative classifiers.


Dating to at least 1997, DoD has required that the performance appraisal contain a
critical element. This policy (previously stated in DoD 5200.1-R, “Information Security
Program,” paragraph C1.1.2.1., and now rescinded) stated: “Management of classified
information shall be included as a critical element or item to be evaluated in the rating
of original classification authorities, security managers or specialists, and other
personnel whose duties primarily involve the creation or handling of classified
information,” and is now found in DoD Manual 5200.01, Volume 1, Enclosure 2,
paragraph 7h. We found that carrying out this requirement ranged from organizations
not having the critical element in their appraisals, to organizations that have maintained
this language since the original requirement.


On June 12, 2013, the USD(I) published a memorandum, “Performance Appraisal Critical
Element for the Protection of Classified Information,” directing that as part of the
Secretary of Defense’s “top down” approach outlined in his October 18, 2012,
memorandum, “Deterring and Preventing Unauthorized Disclosures of Classified



                                  DODIG-2013-142 | 13
                                                                              Finding A



Information,” DoD Components integrate the requirements into their performance
evaluation system. It also directs that Components give the Director, Security Policy and
Oversight Directorate, Office of the DUSD(I&S), an estimated date, no later than
September 30, 2013, for Component implementation. This requirement also includes
information system security personnel, if their duties involve access to classified
information and information system personnel (e.g., system administrators) with
privileged access to classified systems or network resources.


Once implementation plans are received, we will monitor the carrying out of the
performance appraisal critical element tasking for protecting classified information and
report the results in our 2016 report under P.L. 111-258.


Classification Challenges
Authorized holders of information who, in good faith, believe that the information’s
classification status is improper are encouraged and expected to challenge the
information’s classification status. An agency head or senior agency official should
establish procedures under which authorized holders of information, including
authorized holders outside the classifying agency, are encouraged and expected to
challenge the classification of information that they believe is improperly classified or
unclassified. These procedures should ensure that: Individuals are not subject to
retribution for bringing such actions; an opportunity is provided for review by an
impartial official or panel; and individuals are advised of their right to appeal agency
decisions to the Interagency Security Classification Appeals Panel.

DoD Manual 5200.01 -- Volume 1, “DoD Information Security Program: Overview,
Classification, and Declassification,” February 24, 2012, Enclosure 4, Section 6, states:
“If holders of information have substantial reason to believe that the information is
improperly or unnecessarily classified, they shall communicate that belief to their
security manager or the OCA to bring about any necessary correction. This may be done
informally or by submitting a formal challenge to the classification.”


During our interviews, few instances were encountered where interviewees challenged
a classification, and in those instances where challenges were made, interviewees said
they were satisfied with how the challenge was resolved.          Interviewees said that
training successfully addressed classification challenges.




                                 DODIG-2013-142 | 14
                                                                                Finding A



Our office examined 254 SCGs available online, which revealed that only 37.5 percent of
SCGs included guidance for individuals who want to challenge or question the level of
classified information. Such guidance is consistent with Section 1.8 of E.O. 13526 which
states that “authorized holders of information who, in good faith, believe that its
classification status is improper are encouraged and expected to challenge the
classification status of the information.”    SCGs that include classification challenge
guidance allow for a transparent process that provides derivative classifiers with the
means to question the classification of potentially improperly classified information.

Such guidance also provides derivative classifiers with the assurance that the challenge
process is supported. Current guidance for classification challenges as set forth in DoD
Manual 5200.45, “Instructions for Developing Security Classification Guides,” April 2,
2013, reads as follows: “Classification Challenges.

If at any time, any of the security classification guidance contained herein is challenged,
the items of information involved shall continue to be protected at the level prescribed
by this guide until such time as a final decision is made on the challenge by appropriate
authority. Classification challenges should be addressed to the OPR [office of primary
responsibility].”

While this provides for classification challenges, it does not reflect the intent of E.O.
13526 which states that such challenges are “encouraged.” Moreover, the paragraph
does not provide derivative classifiers with the appropriate citations to help in the
challenge process.


Incentives for Accurate Classification
Public Law 111-258, Section 6(a) states that “In making cash awards under chapter 45
of title 5, United States Code, the President or the head of an Executive agency with an
officer or employee who is authorized to make original classification decisions or
derivative classification decisions may consider such officer’s or employee’s consistent
and proper classification of information.”

We did not find information related to incentives for accurate classification in the
policies we reviewed, nor did we find any instances where organizations provided
incentives for accurate classification, whether cash or otherwise.




                                 DODIG-2013-142 | 15
                                                                                   Finding A




Sanctions
E.O. 13526 provides that officers and employees of the U.S. Government, and its
contractors, licensees, certificate holders, and grantees shall be subject to appropriate
sanctions if they knowingly, willfully, or negligently disclose to unauthorized persons
information properly classified under E.O. 13526 or predecessor orders; classify or
continue classifying information in violation of this order or any implementing
directive; create or continue a special access program contrary to this order’s
requirements; or contravene any other provision of this order or its implementing
directives.   Sanctions may include reprimand, suspension without pay, removal,
termination of classification authority, loss or denial of access to classified information,
or other sanctions in accordance with applicable law and agency regulation.


If the ISOO Director finds a violation of the order, the Director shall file a report with the
agency head or to the SAO so that corrective steps, if appropriate, may be taken. We
found that policy covered sanctions, and OCAs and derivative classifiers were aware of
possible sanctions. Our interviewees did not provide any instances where a sanction
had been imposed.


The agency head, SAO, or other supervisory official shall, at a minimum, promptly
remove the classification authority of any individual who demonstrates reckless
disregard or a pattern of error in applying E.O. 13526 classification standards. The
agency head or SAO shall take appropriate and prompt corrective action and notify the
ISOO Director when certain violations occur.


DoD Manual 5200.01 -- Volume 1, “DoD Information Security Program: Overview,
Classification, and Declassification,” February 24, 2012, Enclosure 3, Section 17, states:
DoD military and civilian personnel may be subject to criminal or administrative
sanctions if they knowingly, willfully, or negligently:

    •   disclose to unauthorized persons information properly classified;

    •   classify or continue the classification of information;

    •   create or continue a special access program contrary to the requirements of DoD
        Directive 5205.07, “Special Access Program (SAP) Policy,” July 1, 2010;

    •   disclose controlled unclassified information to unauthorized persons; or

    •   violate any other provision of the Manual.



                                  DODIG-2013-142 | 16
                                                                                Finding A



Sanctions include, but are not limited to: warning, reprimand, suspension without pay,
forfeiture of pay, removal, discharge, loss, or denial of access to classified information
and/or CUI, and removal of classification authority. Criminal prosecution may also be
undertaken in accordance with sections 801-940 of title 10, U.S.C. (also known as “The
Uniform Code of Military Justice”) and other applicable U.S. criminal laws.

If an individual is delegated to have OCA demonstrates reckless disregard or a pattern of
error in applying classification standards, the appropriate official shall, as a minimum,
remove the offending individual’s OCA.


Conclusion
We found that while security program management needs improvement, DoD has made
significant progress in this area. Since August 2010, the Office of the Deputy Inspector
General for Intelligence and Special Program Assessments, OIG, DoD, has conducted a
series of assessments of Security within DoD, as follows: Tracking and Measuring
Security Costs; Training, Certification and Professionalization; Security Policy; and the
soon-to-be published Classification and Grading of Security Positions. We will continue
to do oversight of DoD’s security programs. We will update the progress of security
program management in our 2016 report under P.L. 111-258.


We mapped DoD issuances to E.O. 13526 and 32 C.F.R., Part 2001, and, as a result, found
that policies were adopted at the Office of the Secretary of Defense-level, but had not yet
been adopted at the agency level. While some organizations had a critical element on
security in their performance evaluations, the USD(I) directed that Components
provide, no later than September 30, 2013, an estimated date for implementation for all
DoD Components –- we will monitor and report on this implementation’s progress in
our 2016 report under P.L. 111-258.


We found few instances where interviewees challenged a classification, and in those
instances where challenges were made, interviewees said they were satisfied with how
the challenge was resolved. Interviewees said that their training successfully addressed
classification challenges.   We found that policy covered sanctions and OCAs and
derivative classifiers were aware of possible sanctions. We did not find any situation
where a sanction had been imposed. We also found no incentives existed for accurate
classification either in policy or organizational programs.




                                 DODIG-2013-142 | 17
                                                                                   Finding A



To significantly enhance security program management and provide a governance
mechanism to bring about an enterprise approach to strategic oversight and advocacy
of DoD security capabilities, the USD(I) published, on October 21, 2012, DoD Directive
5200.43, “Management of the Defense Security Enterprise,” creating, for the first time, a
DSE and attendant strategic framework to address security issues. The USD(I) has also
created the DSE ExCom and the DSEAG to provide senior-level guidance, involvement,
organization, and focus to critical security issues.


Recommendations, Management Comments, and
Our Response
A. We recommend that the Under Secretary of Defense for Intelligence:


        1. Provide the implementation status of DoD Component actions to include a
            critical element on security in the Component’s performance evaluations.


        2. Revise policy to incorporate template language for security classification
            guides that is consistent with the intent of E.O. 13526, as follows:


                a. Section 5.3 of Executive Order 13526 and Enclosure 4, paragraph 22
                    of DoD Manual 5200.01, Volume 1, “DoD Information Security
                    Program: Overview, Classification, and Declassification,” February
                    24, 2012, contain guidance for individuals who wish to challenge
                    information that they believe has been improperly or unnecessarily
                    classified.

                b. Such challenges are encouraged and expected and should be
                    forwarded through the appropriate channels to the office of primary
                    responsibility.

                c. Pending final decision, handle and protect the information at its
                    current classification level or at the recommended change level,
                    whichever is higher.

                d. Challenges     should    include    sufficient   description    to   permit
                    identification of the specific information under challenge with
                    reasonable effort.




                                  DODIG-2013-142 | 18
                                                                           Finding A



              e. Challenges should include detailed justification outlining why the
                  information is improperly or unnecessarily classified.


Under Secretary of Defense for Intelligence Comments
The Under Secretary of Defense for Intelligence concurred with our recommendations.


Our Response
The Under Secretary of Defense for Intelligence concurred with our recommendations;
however, management did not provide information to identify what actions will be
taken and the date on which recommendations will be completed. Therefore, we
request additional comments by October 30, 2013.




                               DODIG-2013-142 | 19
                                                                                Finding B



The responsible OCA shall issue security classification guidance for each system, plan,
program, project, or mission involving classified information. Classification guidance
may be in the form of a memorandum, plan, order, or letter, or issuance of a security
classification or declassification guide.

OCAs shall develop, as appropriate, automatic and systematic declassification guidance
for use in review of records that are of permanent historical value and 25 years old or
older.     This guidance shall be published in the appropriate classification or
declassification guide.

Where classification guidance is issued in the form of an SCG, the OCA shall ensure the
guide is reviewed and updated.

As a general rule, classification authority must be exercised an average of twice a year to
qualify for retention of the OCA designation if an OCA does not issue and maintain an
SCG.


Designation of Original Classification Authority,
Program Knowledge, and Training
OCAs, also called original classifiers, include the President, Vice President, Secretary of
Defense, the Secretaries of the Military Departments, and other DoD officials who have
been specifically delegated this authority in writing. When OCA is granted, OCAs are
delegated classification authority specific to a level of classification and cumulative
downwards. For example, an OCA appointed with Top Secret classification authority
may classify information at the Top Secret, Secret, and Confidential levels. An OCA
appointed with Confidential classification authority may only classify information at the
Confidential level.

OCAs may only classify information that is under their area of responsibility, such as a
specific project, program, or type of operation. For example, it would be inappropriate
for an air wing commander to classify information about a Navy undersea warfare
program.

We determined that OCAs were properly designated. We conducted interviews of OCAs
to evaluate their knowledge of classification management procedures. The interviews
were intended to help gauge if these individuals’ job position required having OCA and if
the individuals have expert knowledge of the information and classification
requirements to ensure that information is not over-classified.




                                   DODIG-2013-142 | 21
                                                                                Finding B



We found that OCAs had received the required training and had satisfactory knowledge
of classification principles and procedures.


Most OCAs interviewed had made few, if any, original classification decisions; had not
been confronted with classification challenges -- either as one who made such a
challenge or as an OCA who might have to respond to such a challenge; had sparingly
used classification guides; or created classification guides/guidance. As a general rule,
classification authority must be exercised an average of twice a year to qualify for
retention of the OCA designation if an OCA does not issue and maintain an SCG.


Conclusion
We found that OCAs were properly designated, knowledgeable of classification
requirements to ensure that information is not over-classified, and received the
required training. We also found that most of the OCAs interviewed had made few, if
any, original classification decisions or been confronted with classification challenges to
classification decisions.


Recommendation, Management Comments, and Our
Response
B.   We recommend that the Under Secretary of Defense for Intelligence direct
Component reviews of OCA positions to ensure that the position is needed.


Under Secretary of Defense for Intelligence Comments
The Under Secretary of Defense for Intelligence concurred with our recommendations.


Our Response
The Under Secretary of Defense for Intelligence concurred with our recommendation;
however, management did not provide information to identify what actions will be
taken and the date on which recommendations will be completed. Therefore, we
request additional comments by October 30, 2013.




                                 DODIG-2013-142 | 22
                                                                               Finding C



In a June 2006 report, GAO stated that DoD’s estimate of how many original and
derivative classification decisions it makes annually is unreliable because those
decisions are based on data from the DoD components that were derived using different
assumptions about what should be included and about data collection and estimating
techniques.

Nevertheless, this estimate is reported to the President and to the public. If the
processes for collecting and manipulating data are properly implemented, data
reliability could be improved, but only if the processes address the underlying lack of
uniformity in how the individual DoD components are collecting and manipulating their
data to arrive at their estimates.

We found the same lack of uniformity with respect to the collection of SF 311 data
throughout DoD. However, DoD and other federal government agencies that use SF 311
have been working with ISOO to make this form more relevant.


Each fiscal year, DoD Components are required to submit a consolidated SF 311 report
concerning their Information Security Classification Management Program. The SF 311
report should include a total number of classification decisions regardless of media --
electronic presentations, email, official correspondence or memoranda, photographs,
reports and/or intelligence products, web pages, and wiki articles and blog articles.


Previously, ISOO asked agencies to report only the number of classified “finished
products,” a term which originated in the paper-based era and was often not easily
applied in the electronic environment. However, because of the increasing use of the
electronic environment to share and disseminate information, we need to consider
more than just the “finished product” concept and instead count all classification
decisions, regardless of the type of media. It was further requested that each reporting
agency adjust its counting or sampling methodology to include such web applications as
email, wikis, and blogs.


ISOO initiated discussions with agency representatives to explore reforms of the SF 311
reporting process. The consensus from these discussions focused on the need for a
proposal to change the reporting requirements in Part E, “Mandatory Declassification
Review Requests and Appeals.” That section of the SF 311 was updated, and ISOO
remains open for further discussion on improving the form.




                                 DODIG-2013-142 | 24
                                                                                Finding C




Accounting for Costs
An FY 2012 ISOO cost report found that combined costs for Government and industry
security classification activities amounted to $10.96 billion. This is a decrease from FY
2011 of $1.66 billion, or 13 percent. ISOO reports annually to the President on the
estimated costs associated with agencies’ implementation of E.O. 13526, and E.O. 12829,
as amended, “National Industrial Security Program.”

ISOO relies on the agencies to estimate and report the costs of the security classification
system. Even if reporting agencies had no security classification activity, many of their
reported expenditures would continue in order to address other, overlapping security
requirements, such as work force, facility and information systems protection, mission
assurance operations, and similar needs.


DoD Directive 5200.43 and the DSE Strategic Plan require quantifying security costs.
The DSE has created a framework for collecting security costs. The intent is to quantify
the cost of security resources regardless of whether they are funded via security or non-
security budgets or whether they support security, in part or in total.


Fundamental Classification Guidance Review (FCGR)
Results:
In June 2006, GAO found that some of the DoD components and subordinate commands
that were examined routinely did not submit copies to a central library, as required, of
their SCGs, and documentation that identifies which information needs protection and
the reason for classification. Also, some did not track their classification guides to
ensure they were reviewed at least every five years for currency, as required. DoD
personnel cannot be assured that they are using the most current information to
derivatively classify documents. DoD is studying ways to improve its current approach
to making security classification guides readily available, Department-wide.


We found that all SCGs were on the DTIC website, with the exception of SCGs marked
sensitive or classified.


On April 2, 2013, USD(I) published DoD Manual 5200.45, “Instructions for Developing
Security Classification Guides,” which requires OCAs to:




                                 DODIG-2013-142 | 25
                                                                               Finding C



   •   issue and disseminate security classification guidance for each system, plan,
       program, project, or mission involving classified information under their
       jurisdiction;

   •   review security classification guidance issued under their authority once every
       five years to ensure currency and accuracy or sooner when necessitated by
       significant changes in policy or in the system, plan, program, project, or mission;
       and to update the guides as required;

   •   revise, whenever necessary for effective derivative classification, SCGs issued
       under their authority;

   •   provide copies of any security classification guides issued under their authority,
       as required by DoD Manual 5200.01, Volume 1, Enclosure 6;

   •   cancel security classification guides when all information the guide specified as
       classified has been declassified, or when a new classification guide incorporates
       the classified information covered by the old guide and no reasonable likelihood
       exists that any information not incorporated by the new guide shall be the
       subject of derivative classification; and

   •   coordinate with the Department of Energy, Office of Classification, through the
       Deputy Assistant Secretary of Defense for Nuclear Matters, whenever OCAs
       develop or revise SCGs with Restricted Data (RD) or Formerly Restricted Data
       (FRD) information.

Agencies completed the first executive branch-wide FCGR in FY 2012, a major
investment in combating over-classification and limiting secrecy to only that
information absolutely necessary to protect the national security. Twenty-five agencies
with original classification authority conducted comprehensive reviews of their
classification guidance, streamlining, and consolidating of 3,103 classification guides to
reflect current circumstances.


As of June 27, 2012, DoD initiated a FCGR on 2,070 SCGs, retiring/cancelling 413 FCGRs,
and reporting 1,657 FCGRs as active/current. The DoD FCGR program is a high-interest
item for the DSEAG.




                                 DODIG-2013-142 | 26
                                                                               Finding C



With respect to ODNI guidance to the IC, the Defense Intelligence Agency, Geospatial-
Intelligence Agency, National Security Agency, and National Reconnaissance Office
reported their FCGR execution status directly to ISOO, with a copy provided to the
USD(I).


These reviews’ purpose was to ensure that guidance reflects current circumstances
regarding what information warrants continued classification. Additionally, the reviews
identified information that no longer requires classification and can be expedited for
declassification.   The reviews helped agencies ensure proper classification of
information vital to national security, while avoiding over-classification and
unnecessary classification of records.


E.O. 13526 directed that the FCGR program be initiated. The order required all federal
agencies with significant classification programs to review their classification guidance,
and then provide summaries of their reviews to the ISOO Director by July 2012. DoD
completed its review within the specified timeframe and submitted its information to
ISOO. The final report detailed the status of FCGR activities from 2011-2012 and results
achieved to date.


E.O. 13526 also required that these comprehensive reviews of an agency’s classification
guidance, particularly classification guides, continue periodically to ensure that
guidance reflected current circumstances and to identify classified information that no
longer required protection and could be declassified. The next review is scheduled to be
completed in 2017 and every five years thereafter.


The OUSD(I) administered the review of SCGs throughout DoD.             The goal was to
centralize SCGs in a repository to ensure the accessibility of guidance to DoD
components, and in accordance with E.O. 13526, to update guidance to eliminate
redundancies and inaccuracies.




                                 DODIG-2013-142 | 27
                                                                                      Finding C



As a result of these efforts, 97 percent of DoD’s SCGs were updated and/or declared
current, and 20 percent of DoD’s non-compartmented 4 SCGs were eliminated. The
overarching efforts are reflected below.



                      DOD COMPONENT-BY-COMPONENT FINAL REPORT
                     FUNDAMENTAL CLASSIFICATION GUIDANCE REVIEW




We conducted an independent review of SCGs to ensure that accessible information was
both current and appropriately classified.         To that end, SCGs were pulled from a
centralized repository at the Defense Technical Information Center (DTIC), which
serves the DoD community as the largest central resource for DoD and government-
funded information related to science, technology, engineering, and business. DoD
Manual 5200.01, Volume 1, “DoD Information Security Program: Overview,
Classification, and Declassification,” February 24, 2012, directs organizations to provide
a copy of approved SCGs to the Administrator, DTIC, which, in turn, makes the SCGs
accessible online to DoD elements.




4
 A term-of-art concerning information that is not derived from intelligence sources, methods, or
analytical processes that requires special handling.



                                    DODIG-2013-142 | 28
                                                                                Finding C




DTIC lists 1,822 active SCGs, and of that number, only 1,138 SCGs were linked to
documents we were able to review. To ensure consistency with the FCGR, we reviewed
SCGs from the Army, Navy, Air Force, Joint Staff, Defense Advanced Research Projects
Agency, Defense Threat Reduction Agency, and the Missile Defense Agency. Based on
the numbers reflected in the FCGR report, the statistically-supportable stratified sample
sizes were determined for SCGs from the respective organizations. The following chart
reflects the applied methodology.

Optimum Sample Size for Proportions
      Confidence Level        90%
      Precision (ME) 5%
      z-value                 1.645

Organization      Stratum       Error Rate   w.sqrt(pq)   wpq     est. sample    min n    Sample size
                    Size                                              size
Army                345             0.2         0.08      0.03       33.07         30         34
Navy                740             0.2         0.18      0.07       70.93         30         71
Air Force           262             0.2         0.06      0.03       25.11         30         30
DARPA               134             0.2         0.03      0.01       12.84         30         30
MDA                 29              0.2         0.01      0.00        2.78         30         29
Joint Staff         86              0.2         0.02      0.01        8.24         30         30
DTRA                42              0.2         0.01      0.00        4.03         30         30
    Total          1,638                        .40        .16                               254

est. sample              156.6 157
tot sample size          254
Reference:               Cochran, Wm. G. Sampling Techniques, 3rd Ed. 1977 pp. 108-110

The recommended sample size for some organizations exceeded the number of SCGs
available for review. In addition, as noted above, some SCGS were not accessible
through the unclassified DTIC site. However, our office did review a total of 254 SCGs.


The review revealed some problems with the guides, which are available on the DTIC
website. Guidance from as early as 1997 (Information Security Program, January 1997,
the Assistant Secretary of Defense for Command, Control, Communications, and
Intelligence) required organizations to submit DD Form 2024s, “DoD Security
Classification Guide Data Elements,” with their approved SCGs. The form allows for
greater transparency in determining offices of primary responsibility and OCAs for
associated SCGs. Of the 254 SCGs reviewed, less than 44 percent contained this form.




                                  DODIG-2013-142 | 29
                                                                                      Finding C




Moreover, 55 percent of the documents reviewed still reference E.O. 12958, which was
superseded by E.O. 13526 which was signed on December 29, 2009, as the basis for
classification, regrading, 5 or declassification of information, and 4.7 percent contained
declassification dates that had already occurred. DoD completed its FCGR in July 2012
and, as noted previously, E.O. 13526 was signed almost three years earlier. As the
central repository for unclassified SCGs, the information contained with the DTIC should
reflect the most up-to-date guidance for all DoD elements.


Conclusion
We found that DoD’s annual estimates of original and derivative classification decisions
is unreliable because those decisions are based on data from DoD components that were
derived using different assumptions about what should be included and about data
collection and estimating techniques. Although SCGs are now on the DTIC website,
more effective management of the SCGs is needed to ensure their accuracy and OCA
involvement.


Recommendations, Management Comments, and
Our Response
C. We recommend that the Under Secretary of Defense for Intelligence, in coordination
with the Under Secretary of Defense for Acquisition, Technology, and Logistics,
incorporate into policy that:


        1. Security Classification Guides forwarded to the Defense Technical
Information Center must be forwarded with the requisite DD Form 2024, and signed by
the appropriate Original Classification Authority to ensure accountability.


        2. Defense Technical Information Center not accept DD Forms 2024 that are not
completely filled out and signed by the appropriate agency.



        3. A time requirement for the submission of updated SCGs be
            established.



5
 Regrading refers to changing a classification to the appropriate level based on the information
being either overgraded (higher than appropriate) or undergraded (lower than appropriate).



                                    DODIG-2013-142 | 30
                                                                            Finding C



       4. Reminders be sent to organizations as SCGs near biennial review
requirements.


Under Secretary of Defense for Intelligence Comments
The Under Secretary of Defense for Intelligence concurred with our recommendations.


Under Secretary of Defense for Acquisition, Technology
and Logistics Comments
The Under Secretary of Defense for Intelligence concurred with our recommendations.


Our Response
The Under Secretary of Defense for Intelligence and the Under Secretary of Defense for
Acquisition, Technology and Logistics concurred with our comments; however,
management did not provide information to identify what actions will be taken and the
date on which recommendations will be completed. Therefore, we request additional
comments by October 30, 2013.




                                DODIG-2013-142 | 31
                                                                                      Finding D




        •     promote understanding of DoD Information Security Program policies
              and requirements and their importance to national security and national
              interests;

        •     instill and maintain continued awareness of security requirements; and

        •     assist in promoting a high degree of motivation to support program
              goals.

The Manual states that initial, refresher, training for OCAs, and specialized training must
be given to persons who apply original and derivative classification markings. It also
requires suspending OCA and derivative classification authority if these personnel fail to
meet the training requirements.

The Manual further states that security education and training may be accomplished by
establishing programs within the DoD Component, or using external resources, such as
the CDSE, or a combination of the two.            Security education and training shall be
conducted continuously, not periodically. Other information and promotional efforts
will supplement periodic briefings, training sessions, and other formal presentations to
ensure that awareness and performance quality is continually maintained.

The training will include defining a security incident, a violation, and a compromise of
classified information, examples of each, and explaining the criminal, civil, and
administrative sanctions that may be taken against an individual who fails to comply
with program requirements or fails to protect classified information from unauthorized
disclosure.

Using job performance aids 6 and other substitutes for formal training is encouraged if
determined to be the most effective way to achieve program goals.                     Circulating
directives or similar material on a read-and-initial basis shall not be considered as the
sole means of fulfilling any of the Enclosure’s specific requirements. While no central
tracking system exists, each organization tracks training to ensure that required
periodic training is conducted.


6
  Performance aids are sometimes called job aids, which is defined as a repository for
information, processes, or perspectives that is external to the individual and that supports work
and activity by directing, guiding, and enlightening performance. For example, CDSE uses an
OCA DeskTop Reference and a Derivative Classification Training guide, which are used as job
performance aids.



                                    DODIG-2013-142 | 33
                                                                             Finding D




CDSE Curriculum Revised to Meet the Requirements of
E.O. 13526

OCA and Derivative classifier curriculum complies with the requirements outlined in
E.O. 13526 and DoD Manual 5200.01, Volumes 1-4. OCA and Derivative classifiers have
the option of receiving their required and refresher training through various training
platforms, to include instructor-led, eLearning, job aids, videos, shorts, and webinars.
Functional areas taught by CDSE include:


   •   General Security;
   •   Cybersecurity;
   •   Industrial Security;
   •   Information Security;
   •   International Security;
   •   Operations Security;
   •   Personnel Security;
   •   Physical Security;
   •   Sensitive Compartmented Information;
   •   Special Access Programs; and
   •   Counterintelligence


CDSE’s Education Division offers graduate-level courses designed specifically to develop
leaders for the DoD security community. Courses are delivered using a collaborative
online learning environment and are available to U.S. military and government
employees worldwide. No tuition or fees are required; however, some courses require
purchasing textbooks. Most courses have received the American Council on Education’s
College Credit Recommendation Service ACE College Credit recommendation.


CDSE’s Training Division embraces the training challenges that the DoD security
community currently faces. With an eye toward innovation, the Training Division offers
diverse training courses and products presented through a variety of learning
platforms. The Training Division’s courses and products continuously meet the needs of
each target population’s needs and are streamlined to the contemporary learner’s
performance requirements and busy schedules.




                                 DODIG-2013-142 | 34
                                                                                Finding D




The Security Professional Education and Development program is a DoD security
workforce professionalization initiative that DSS administers through the CDSE. The
Security Professional Education and Development program supports achievement of
community-defined skill standards and serves as a foundation for security workforce
professionalization. The Security Professional Education and Development program
focuses on three critical elements: Education, Training, and Certification. Detailed
information on the Security Professional Education and Development program is in DoD
OIG Report No. DoDIG-2011-001, “Assessment of Security Within the Department of
Defense – Training, Certification, and Professionalization,” October 6, 2011.


The CDSE has a number of ways it conducts outreach, as follows:


   •   Facebook -- http://www.facebook.com/#!/pages/CDSE-Center-for-Development-
       of-Security-Excellence/111635548863732.          CDSE uses Facebook to relay
       information about upcoming classes and new products.            CDSE also relays
       information from other sources about the work that DoD accomplishes.           The
       account was created in April 2010 and is updated regularly.

   •   Twitter -- https://twitter.com/TheCDSE. Since its creation in September 2010,
       CDSE has posted 516 tweets, providing information on upcoming courses, new
       course releases, as well as other CDSE news that target populations may find
       important.

   •   The CDSE YouTube Channel -- http://www.youtube.com/user/dsscdse. CDSE
       has over 14,500 combined views of the videos and presentations on its YouTube
       Channel. The channel’s contents include video job aids, informational videos,
       and recorded webinars.

The CDSE also periodically sends an electronic newsletter called the “CDSE Flash” that
provides a multitude of updates, including those about training. The newsletter is
extremely informative. But it can only be sent to those individuals who have taken a
CDSE course where they provided their email addresses. However, by forwarding the
newsletter to all the security managers, they could send it to all of their organization’s
original and derivative classifiers, where these individuals could get updates on new
training and other matters.




                                 DODIG-2013-142 | 35
                                                                                   Finding D




However, organization security representatives could ensure, through increased
outreach, that OCAs and Derivative Classifiers are provided CDSE information. Such
outreach would also ensure that these individuals are kept aware that training
opportunities are always available.


We should emphasize that some organizations had very comprehensive and, depending
on the mission, tailored training programs. However, CDSE can provide consistency in
security education and training for both DoD and industry.


Conclusion
We found that policy requires initial, refresher, specialized training, and training for
OCAs and persons who apply derivative classification markings.              It also requires
suspending OCA and derivative classification authority if these personnel fail to meet
the training requirements. Several persons we interviewed did not know of the DSS,
and were not aware of the CDSE and its course offerings.


Recommendation, Management Comments, and Our
Response
D. We recommend that the Under Secretary of Defense for Intelligence develop a plan
to:


      1. Enhance its outreach to the security community to expand awareness of the
         Center for Development of Security Excellence.


      2. Ensure all original and derivative classifiers receive relevant and timely training
         that is tailored to current policy, procedures, rules, and regulations.


Under Secretary of Defense for Intelligence Comments
The Under Secretary of Defense for Intelligence concurred with our recommendations.


Our Response
The Under Secretary of Defense for Intelligence concurred with our recommendation;
however, management did not provide information to identify what actions will be
taken and the date on which recommendations will be completed. Therefore, we
request additional comments by October 30, 2013.



                                   DODIG-2013-142 | 36
                                                                               Appendix A




Appendix A: Observations
We evaluated the effectiveness of policies for developing classification decisions;
classification by derivative classifiers; effectiveness of self-inspection programs; and IC
Cross-Cutting Issues. While there is need for improvement in all areas, because DoD is
in the early stages of addressing these challenges, we believe the most effective method
of oversight is to monitor these challenges and then identify and assess DoD’s
improvements in our 2016 report under P.L. 111-258. We will also provide information
to the IC IG as needed as issues arise during this period. Our observations of these
evaluation areas are as follows:


Observation A. Effectiveness of Policies for
Developing Classification Decisions
We found that the policy for developing classification decisions is effective. We also
found no instances where information was originally classified for reasons other than
the defined areas for classification.


While we did find some instances of over-classification, we do not believe that those
instances concealed violations of law, inefficiency, or administrative error; prevented
embarrassment to a person, organization, or agency; restrained competition; or
prevented or delayed the release of information that did not require protection in the
interest of national security.     However, we did find several instances where the
inaccurate use of dissemination control and handling markings unnecessarily restricted
information sharing.


This observation section will focus on the core issues of original classification to include
the appropriateness of original classification decisions and the proper marking of
classified information, which may include proper application of dissemination control
markings.




                                   DODIG-2013-142 | 37
                                                                                 Appendix A




Original Classification Decision Process

Original classification is the act of making an initial decision that information requires
protection in the interest of national security and could be expected to cause damage if
subjected to unauthorized disclosure. It is a six-step process in which the classifier
must answer specific questions at each step and make considerations and decisions
before classifying information. This process is designed to help OCAs make quality
classification decisions, as outlined in the Defense Security Service (DSS), Center for
Development of Security Excellence (CDSE). 7 The steps in the OCA desktop reference
guide are described as follows:

Step 1 -– Determination of Official Government Information

The OCA must determine if the information being considered for classification is official.
“Official” in this context is defined as information owned by, produced by or for, or
under the control of the U.S. Government. Without the Government having some official
interest in the information, classification is not an option. If the information is not
official, the process stops at Step 1, as the information would be ineligible for
classification. The Government would have to acquire proprietary or other official
interests before information could be classified. Defining information as “official” may
sometimes cause confusion. Some information may fall within the criteria of the Patent
Secrecy Act of 1952 and/or may require guidance from legal counsel. If the information
is deemed official, the OCA would move to Step 2 in the decision process.

Step 2 -- Determination of Eligibility for Classification

The OCA must consider if the information is eligible for classification, and if it is eligible,
determine if the information is limited or prohibited from being classified.

Eligibility for Classification

If the information under consideration for classification cannot be placed in one or more
of eight categories, it cannot be classified. The eight categories of information that E.O.
13526 currently identifies that can be considered for classification are:

7
 The CDSE provides DoD with a security center of excellence for professionalizing the security
community and for being the premier provider of security education and training for DoD and
industry under the National Industrial Security Program. The CDSE provides development,
delivery, and exchange of security knowledge to ensure a high-performing workforce capable of
addressing security challenges.



                                   DODIG-2013-142 | 38
                                                                               Appendix A



    •   military plans, weapons systems, or operations;

    •   foreign government information;

    •   intelligence activities (including covert action), intelligence sources or methods,
        or cryptology;

    •   foreign relations or foreign activities of the United States, including confidential
        sources;

    •   scientific, technological, or economic matters relating to national security;

    •   U.S. Government programs for safeguarding nuclear materials or facilities;

    •   vulnerabilities or capabilities of systems, installations, infrastructures, projects,
        plans, or protection services relating to national security; and

    •   weapons of mass destruction.

The information is not eligible for classification if another OCA has already classified it
or if classification guidance is not already available in the form of security classification
guides, plans, or other memorandums.              Within DoD, the majority of existing
classification guidance is indexed and issued via the Defense Technical Information
Center (DTIC), at www.dtic.mil.

Classification Prohibitions and Limitations

Once information has been determined eligible for classification, the OCA must
determine if the information is limited or prohibited from being classified.              In
accordance with E.O. 13526, information may not be classified, continued to be
maintained as classified, or fail to be declassified in order to:

    •   conceal violations of law, inefficiency, or administrative error;

    •   prevent embarrassment to a person, organization, or agency;

    •   restrain competition;

    •   prevent or delay the release of information that does not require protection in
        the interest of national security.

Limitations to classifications include:



                                   DODIG-2013-142 | 39
                                                                           Appendix A



•   basic scientific research information not clearly related to national security
    should not be classified;

•   information that has been declassified and released to the public under proper
    authority may be reclassified only when the information may be reasonably
    recoverable without bringing undue attention to the information. This means
    that:

        o   most individual recipients or holders are known and can be contacted
            and all forms of the information to be reclassified can be retrieved from
            these individuals, and

        o   if the information has been made available to the public via such
            facilities as U.S. Government archives or reading rooms, it can be or has
            been withdrawn from public access without significant media, public
            attention, or notice.

•   DoD Component Heads, other than the Secretaries of the Military Departments,
    should submit recommendations for reclassification of information under their
    jurisdiction to the Secretary of Defense through the USD(I). Recommendations
    for reclassification must include, on a document-by-document basis:

        o   a description of the information;

        o   all information necessary for the original classification decision in
            accordance with E.O 13526, including classification level of the
            information and declassification instructions to be applied.

        o   when and how the information was released to the public.

        o   an explanation as to why the information should be reclassified. Include
            the applicable reason in accordance with E.O. 13526 and describe what
            damage could occur to national security and what damage may have
            already occurred as a result of the release.

        o   the number of recipients and/or holders and how they will be notified of
            the reclassification.

        o   how the information will be recovered; and




                                DODIG-2013-142 | 40
                                                                              Appendix A



            o   whether the information is in the custody of the National Archives and
                Records Administration and whether the Archivist of the United States
                must be notified of the reclassification.

Step 3 -– Determination of the Impact on National Security

Another essential decision OCAs must make before they can say the information has
been classified is to determine the potential for damage to national security if
unauthorized release occurs. If it is determined that no potential exists for damaging
national security, the information will not be classified. If the potential exists for
damage to national security and the information is determined eligible for classification
as defined in Step 2, the information is then determined classified.

While it is not required to prepare a written description of the potential for damage to
national security before the information can be classified, OCAs must be able to defend
their decision and identify or describe the potential damage if their decision is
questioned or challenged. It is recommended that the OCA justify this decision in
writing at the time when it is made so that when others assume their OCA
responsibilities, they will have proper information.

The OCA must also consider both the impact of classification itself, how over-
classification could potentially impede the operational effectiveness of entities that need
the information to complete their mission, and the possibility of protection.            If
classification is applied or reapplied, a reasonable possibility must exist that the
information can be protected from unauthorized disclosure.

Step 4 -- Determination of Appropriate Classification Level

The OCA must evaluate the impact of classification in order to identify the appropriate
classification level. The OCA must determine how sensitive the information is, what the
potential damage to national security would be if the information was not protected,
and assign a classification level based on that determination.         The OCA must use
reasoned judgment to consider the extent of potential damage.

The classification levels are defined in relation to their potential damage to national
security:

   •   If unauthorized disclosure of the information could reasonably be expected to
       cause exceptionally grave damage to national security, it should be classified as
       TOP SECRET.



                                  DODIG-2013-142 | 41
                                                                             Appendix A



    •   If unauthorized disclosure of the information could reasonably be expected to
        cause serious damage to national security, it should be classified as SECRET.

    •   If unauthorized disclosure of the information could reasonably be expected to
        cause damage to national security, it should be classified as CONFIDENTIAL.

Step 5 -- Determination of Classification Duration

After determining the level of classification, the OCA must determine the duration of
classification.   This involves reviewing the level of classification to determine
downgrading requirements and declassification when it is determined that the
information no longer requires classification.

Downgrading:

The OCA must evaluate the information to determine if a future specific date or event
could occur that results in diminishing the damage to national security to the point that
allows for lowering the classification level. If a change occurs in the information’s
sensitivity, the OCA will need to assign a date or event for downgrading that
information. If the OCA determines that the sensitivity will not decrease or cannot make
a determination on decreased sensitivity, the OCA will proceed to determine the
declassification instructions.

Declassification:

The OCA must make declassification determinations for all classification decisions.
When considering the duration of classification, the OCA must follow these guidelines:

    •   if the OCA knows of a date within 10 years where the potential for damage from
        compromise is no longer a national security concern, then that date is assigned
        as the declassification date;

    •   if the OCA cannot determine a date, but can identify an event that is expected to
        occur within the next 10 years where the potential for damage from
        compromise is no longer a national security concern, then that event is assigned
        as the declassification instruction;

    •   if the OCA determines that information requires protection beyond 10 years of
        the original classification, the OCA may assign a date or event up to, but not
        exceeding, 25 years from the date of the original decision;




                                  DODIG-2013-142 | 42
                                                                             Appendix A




   •   human intelligence exemption -– An OCA shall apply the “50X1-HUM” exemption
       with no date of declassification when classifying information that could be
       expected to reveal the identity of a confidential human source or human
       intelligence source. Only OCAs having jurisdiction over such information may
       use this designation;

   •   weapons of mass destruction exemption –- An OCA shall apply the “50X2-WMD”
       exemption with no date of declassification when classifying information that
       could be expected to reveal the development, production, or use of weapons of
       mass destruction. Only OCAs having jurisdiction over such information may use
       this designation;

   •   the 25X markings are applied when information is exempt from 25-year
       automatic declassification, and cannot be used unless the specific information
       has been approved through the Interagency Security Classification Appeals
       Panel, generally in the form of a declassification guide. Such information must
       be incorporated into classification guides.      The classification guide would
       include the specific element of information and the level of classification.
       (Examples of how this works would be “25X4, 20401010” or “25X9,
       20300125.”) When the 25X marking is applied, the “Declassify on” line would
       include the symbol “25X” and a brief reference to that category and the new date
       or event for declassification. For a complete list of the exemptions, refer to E.O.
       13526; and

   •   information classified in accordance with the Atomic Energy Act of 1954, as
       amended (Restricted Data and Formerly Restricted Data), is exempt from
       declassification requirements. For Restricted Data, classification decisions are
       codified in the Department of Energy Classification Guide.          For Formerly
       Restricted Data, classification decisions are documented in the Joint Department
       of Energy/DoD Classification Guide.

Step 6 -- Providing and Communicating Guidance for Derivative
Classification

The OCA’s final step in the original classification decision process is designating the
information as classified and to communicate the decision. Three methods exist for
communicating the decision.




                                DODIG-2013-142 | 43
                                                                                Appendix A



    •   SCGs/declassification guides;

    •   Properly-marked source documents; and

    •   outline classification instructions on a DD Form 254, “DoD Contract Security
        Classification Specification.”

The preferred method for communicating classification decisions is to communicate it
through an SCG. The least common method for communicating the decision is to outline
classification instructions on a DD Form 254, which identifies all contractor-specific
security requirements and guidance. Its rare use may occur when a contract is required
and needs classification instructions, but a classification guide is unavailable.

Once the decision is communicated, the decisions will be used by others who must work
with the information to make proper derivative classification decisions and ensure the
information is properly protected from unauthorized disclosure. OCAs have the vital
task of effectively communicating their decisions.


Security Classification Guide Analysis

Because the SCG is the preferred method for communicating classification decisions, we
conducted a review of 254 SCGs that were available online at the DTIC website to
determine the accuracy of information and identify areas for improvement. SCG content
was consistent with established guidance.         The SCGs contained valid reasons for
classification and consistently provided declassification guidance.

We found no instances where information was classified for reasons other than the
defined areas for classification. Based on our review, OCAs are effectively making
classification determinations on information that derivative classifiers will use. Finding
D does identify some areas of concern regarding SCG administration and management.
However, these concerns do not reflect issues with classification determinations or the
procedures used to make classification decisions.


Conclusion
We found that the policy for developing classification decisions is effective. For a vast
majority of documents, we found no instances where information was classified for
reasons other than the defined areas for classification.




                                  DODIG-2013-142 | 44
                                                                              Appendix A




Observation B. Classification by Derivative Classifiers
Current standards and guidance exist for derivative classifiers; however, guidance is
conflicting in some cases and not updated in others. Absent consistent policies and
coordinated training, persistent misclassification of classified documents will continue.
However, as stated in Finding A, we mapped DoD issuances to E.O. 13526 and 32 C.F.R.,
Part 2001, and as a result policies were adopted at the Office of the Secretary of
Defense-level, but had not yet been adopted/promulgated at the agency level.


This section will focus on the core issues relating to derivative classification and the
individuals who make derivative classification decisions. All personnel with an active
security clearance can perform derivative classification.      All personnel who apply
derivative classification markings must receive training on the proper application
principles of E.O. 13526 prior to derivatively classifying information and at least once
every two years thereafter. Information may be derivatively classified from a source
document or documents, or through using a classification guide.

Derivative classifiers identified issues with conflicting and confusing marking standards.
The issues identified in the document review section reflect inconsistent standards and
guidance with respect to the marking of derivatively classified documents. This is
particularly evident with emails. The documents exemplify the application of varying
standards in the marking of derivatively classified documents. The documents also
provide evidence of the disparate methods that derivative classifiers employ to resolve
classification discrepancies, which can adversely affect the sharing of classified
information with key stakeholders and individuals with an identified need to know.


Input from Derivative Classifiers
We reviewed comments from derivative classifiers to assess their knowledge of the
classification process and the appropriateness of derivative classification actions. To
that end, we asked if derivative classifiers had encountered issues with the classification
of similar information at differing levels, inaccurate portion markings, conflicting
guidance and the constraints that control markings might place on information
sharing. We found that a majority of respondents have encountered similar information
classified at different levels.

Respondents also noted the conflicting guidance regarding dissemination control
markings. (See Appendix A, Observation D for further details on dissemination control
markings.)     A majority also received no training on the process for challenging
information they believed to be inappropriately classified.



                                  DODIG-2013-142 | 45
                                                                               Appendix A



Our review of a sample of classified documents indicates that these inconsistencies have
resulted in improperly and inaccurately marked documents, with several instances of
misclassification and a few instances of over-classification. Absent consistent policies
and coordinated training, persistent misclassification of classified documents will
continue. These incongruities burden derivative classifiers, who, as a result, resolve
discrepancies inconsistently. Inappropriately classified information can also impede
the sharing of information with stakeholders and individuals with a legitimate need-to-
know.

When asked if they had ever encountered similar information classified at different
levels, more than 60 percent of derivative classifiers queried responded affirmatively.
Of that number, 18 percent indicated that when they tried to resolve classification
inconsistencies, the guidance was neither clear nor consistent.           The majority of
respondents who encountered differing levels of classification for the same information
chose to use the higher classification level to mark their derivative documents, using a
better-safe-than-sorry approach to classification.


Sixty eight percent of respondents identified concerns with the consistent application of
portion markings in classified documents, while 27 percent expressed specific concerns
with the system of dissemination controls. Specific comments included the need for
more training using portion markings and classification authority blocks to correspond
with new guidance.      One respondent noted the presence of conflicting and non-
authoritative policies citing organizational, ISOO, and Controlled Access Program
Coordination Office (CAPCO) guidance that is not always in harmony.


Review of Classified Documents
We conducted an independent review of classified documents to determine the
prevalence of improperly and inaccurately marked documents. We reviewed 220
classified documents for consistency in portion markings, dissemination controls,
classification authorities, and declassification guidance. In total, we found that 70
percent of the 220 documents reviewed had classification discrepancies. Moreover, 23
documents, or approximately 10 percent, were misclassified or over-classified.


A majority of the documents (52 percent) had issues with the classification block to
include incorporating new guidance regarding the “classified by” line. Without the
“classified by” information, in the event of a challenge, a successful potential challenge is
problematic. Other documents still cited E.O. 12958 for classification authorities and
declassification exemptions.



                                  DODIG-2013-142 | 46
                                                                              Appendix A




One-hundred percent of emails we reviewed contained errors in marking or
classification. To improve, DoD is working on efforts to enhance proper classification in
the electronic environment to ensure meeting the requirements of Section 1.6 and 2.1 of
E.O. 13526. Of particular concern is the amount of misclassification historically seen in
routine information and emails on classified information systems. This misclassification
is often abetted by default email marking tool settings that allow the user to accept the
default without further consideration of whether other markings are required by the
email’s content. To address this situation, DoD is working to issue technical guidance to
system administrators requiring:

   •   email marking tools be deployed to all classified information systems;

   •   the tools be configured with no default setting; and

   •   the requirement for a classification marking be enforced by the tool/technical
       solution.

Specific examples of over-classification included a document that referenced
information from an open-source publicly-available report on corruption.               The
derivative classifier classified the analysis of the information citing no classification
authority. Another instance involved a template automatically marked SECRET even
though the entire content was shown to have “nothing significant to report.”


Conclusion
Derivative classifiers identified issues with conflicting and confusing marking standards.
Moreover, they noted that supporting guidance is not always updated to reflect current
classification standards.   Derivative classifiers also expressed frustration regarding
ever-changing standards and the sometimes unclear and inconsistent processes applied
to resolve classification concerns. However, as stated in Finding A, we mapped DoD
issuances to E.O. 13526 and 32 C.F.R., Part 2001, and as a result policies were adopted
at the Office of the Secretary of Defense-level,              but had not yet been
adopted/promulgated at the agency level.

The issues identified in the document review section reflect inconsistent standards and
guidance regarding the marking of derivatively classified documents.               This is
particularly evident with emails, where those we reviewed displayed some form of
marking or classification error. The documents exemplify the application of varying
standards in the marking of derivatively classified documents, and provide evidence of



                                 DODIG-2013-142 | 47
                                                                                 Appendix A



the disparate methods employed by derivative classifiers to resolve classification
discrepancies.   These inconsistencies can adversely affect the sharing of classified
information with key stakeholders and individuals with an identified need-to-know.


We will continuously monitor DoD’s progress to strengthen these efforts, especially as it
relates to agency efforts to update policy to fully align with Office of the Secretary of
Defense-level policy, as well as classification management in the electronic
environment, and report the progress in our 2016 report under P.L. 111-258.


Observation C. Effectiveness of Self-Inspection
Programs
We found that for the self-inspection programs the description, assessment and
summary, specific discrepancy reports, and successful practices provided a
comprehensive picture of DoD’s overall security program management efforts.


This section will focus on the effectiveness of the agency self-inspection program.
Section 5.4(d)(4) of E.O. 13526, and 32 C.F.R. Part 2001.60 requires SAOs to establish
self-inspection programs and issues reports annually on these programs to the ISOO
Director. The reports provide information about the structure and implementation of
the agency's self-inspection program and details this program’s findings, which the SAO
established to help oversee the agency's classified national security information
program.
Throughout our evaluation, our findings were similar to those reporting in the DoD Self-
Inspection Program below.


Self-Inspection Reporting
E.O. 13526, Section 5.4(d), requires agencies to establish and maintain ongoing self-
inspection programs, and report each year to the ISOO Director on those programs.
Self-inspections evaluate the effectiveness of agency programs covering original
classification, derivative classification, declassification, safeguarding, security violations,
security education and training, and management and oversight. In addition, self-
inspections include regular reviews of representative samples of agencies’ original and
derivative classification actions; these samples must encompass all agency activities
that generate classified information, and appropriate agency officials must be
authorized to correct misclassification actions.




                                   DODIG-2013-142 | 48
                                                                            Appendix A



The USD(I) developed its comprehensive DoD report based on the security posture
information received from the SAOs of the following DoD entities:

   •   the Department of the Army;

   •   the Department of the Navy;

   •   the Department of the Air Force;

   •   the Joint Staff;

   •   the Missile Defense Agency;

   •   the Defense Advanced Research Projects Agency;

   •   the Defense Threat Reduction Agency; and

   •   the designated federal entities -- the Defense Intelligence Agency, the National
       Geospatial-Intelligence Agency, the National Security Agency, and the National
       Reconnaissance Office.

Self-Inspection Program Policy


   •   DoD Manual 5200.01, Enclosure 2, Volume 1, paragraph 7d, requires SAOs to
       establish and maintain an ongoing self-inspection and oversight program to
       evaluate and assess the effectiveness and efficiency of the DoD Component’s
       implementation of that portion of the information security program pertaining
       to classified information.


   •   DoD Manual 5200.01, Enclosure 2, Volume 1, paragraph 7d(3), requires self-
       inspections to be conducted at least annually, with the frequency established
       based on program needs and classification activity. DoD Component activities
       that originate significant amounts of classified information should be inspected
       at least annually. Annual reports on the Component’s self-inspection program
       should be submitted, as required, by ISOO and/or USD(I).




                                    DODIG-2013-142 | 49
                                                                           Appendix A




DoD Self-Inspection Results

Description of the DoD Self-Inspection Program


In accordance with E.O. 13526 and 32 C.F.R. Part 2001, and ISOO memorandum of June
29, 2012, agencies were required to establish and maintain an ongoing self-inspection
program, which includes the regular reviews of representative samples of the agency's
original and derivative classification actions.


DoD is a large department, comprised of more than 40 major Components. The USD(I)
is designated as the SAO for the DoD Self-Inspection Program. DoD Manual 5200.01,
Volumes 1-3, carry out E.O. 13526 and 32 C.F.R., Part 2001. DoD Components are
required to carry out an information security program to protect classified national
security information.


To this end, a standard checklist was developed and forwarded to the Components to
use when developing their annual self-inspection reports. Some Components used
already-established methods to conduct their self-inspections and some used the
USD(I)-provided template. USD(I) received approximately 40 separate self-inspection
reports. DoD Components used a variety of work methods to conduct self-inspections.


These methods included interviews of employees and contractors by security
professionals, security managers, and designated teams; reviews of representative
samples of their classified information (document and electronic storage media) based
on unit or organizational mission; and inspections of facilities handling classified
materials. Inspection schedules vary, but were conducted annually, quarterly, and
randomly, as necessary.


The DoD self-inspections evaluated general adherence to the principles and
requirements of E.O. 13526 and 32 C.F.R., Part 2001, and the overall effectiveness and
implementation of requirements from DoD Manual 5200.01 Volumes 1-3, covering:


        •   Original Classification

        •   Derivative Classification

        •   Declassification




                                  DODIG-2013-142 | 50
                                                                             Appendix A



       •   Safeguarding

       •   Security Violations

       •   Security Education and Training

       •   Management and Oversight

The DoD Self-Inspection Program included and assessed all DoD Components that
create, generate, produce, or handle classified information. Components were tasked
with analyzing their findings and taking measures to correct any deficiencies discovered
during the self-inspection process.


Components submitted their reports to the Office of the Under Secretary of Defense for
Intelligence (OUSD(I)) Security Policy and Oversight Directorate, where submissions
were consolidated and then forwarded to ISOO.


Assessment and Summary


Original Classification: All DoD OCAs are designated as such in writing and have
received formal, documented training. If DoD OCAs are found to be non-compliant
for any reason, their authority is suspended until they are in compliance.
Components with OCAs reported that 100 percent of these individuals have
received required training and understand their responsibilities. DoD Components
reported no specific issue items or material weaknesses during the self-inspection.


Derivative Classification: Within DoD, all cleared personnel who generate or create
information that is derivatively classified should ensure that the derivative
classification is made in accordance with DoD Manual 5200.01.             No specific,
individual delegation of authority is required. During this inspection period, most
Components reported that 90 to 100 percent of their derivative classifiers received
training and know about their responsibilities as derivative classifiers (See Finding
D with regard to security education and training). DoD Components reported no
specific issue items or material weaknesses during the self-inspection.




                                 DODIG-2013-142 | 51
                                                                              Appendix A



Declassification:       DoD policy provides specific guidelines pertaining to
declassification and who is authorized in the Department to declassify information.
Declassification does not authorize releasing the information to the public. DoD
Components reported no specific issue items or material weaknesses during self-
inspection. However, this issue remains of high interest with both the OUSD(I) and
the DoD Inspector General as the requirements of the “Reducing Over-Classification
Act” are carried out.

Safeguarding: Each Component in DoD has policies and procedures in its possession
governing the proper safeguarding of classified national security information. DoD
policy states that Components should have a system of control measures that ensure
that access to classified information is limited to authorized persons.        DoD is
effectively applying agency-wide safeguarding measures for classified information
in accordance with Department policies. DoD Components reported no specific
issue items or material weaknesses during the self-inspection.


Security Violations: On October 18, 2012, the Secretary of Defense mandated that
all DoD Components use the central DoD-wide security reporting system that USD(I)
established, in addition to existing reporting requirements.          This serves to
strengthen accountability in the DoD reporting system. DoD has also established an
Unauthorized Disclosure Team whose mission is to prevent and deter DoD
personnel from unauthorized disclosure of classified information. In addition, DoD,
in collaboration with the DNI, developed a strategic plan to address unauthorized
disclosures. This plan will integrate and strengthen DoD's processes to report,
assess damage, and monitor implementation of administrative, management, and
investigative actions. DoD Components reported no specific issue items or material
weaknesses during the self-inspection.

Security Education and Training: DoD policy states that all personnel, including
DoD civilians, military members, and on-site support contractors, receive an initial
orientation about the DoD Information Security Program.           This orientation is
designed to define classified information, produce a basic understanding of security
policies and principles, notify personnel of their responsibilities within the security
program, and inform personnel of the administrative, civil, and/or criminal
sanctions that can be applied, when appropriate. All DoD personnel with continuing
access to classified information must also receive annual refresher training that
reinforces the policies, principles, and procedures covered in their annual and
specialized training.




                                 DODIG-2013-142 | 52
                                                                             Appendix A




Security education and training is accomplished either by established programs
within the Component or by using external resources, such as the CDSE of the DSS.
Some DoD Components choose combining internal and external resources. DoD
training includes initial training, annual refresher, OCA, derivative, and specialty
training. DoD Components reported no specific issue items or material weaknesses
during the self-inspection.

Management and Oversight: The SAO that the head of the DoD Component appoints
has day-to-day responsibility for the direction, carrying out, and oversight of the
Component's information security program and for its efficient and effective
implementation. One of the Component SAO’s responsibilities is to establish and
maintain an ongoing self-inspection and program oversight function.          All DoD
Components are in compliance with DoD policy relating to management and
oversight.


DoD Components reported no specific issue items or material weaknesses during
the self-inspection. USD(I) is responsible for strategic oversight of DoD security
program implementation.


The DSOAP operates in support of this oversight effort.         The DSOAP was not
designed to conflict with, or circumvent Components' existing oversight
mechanisms, but is a collaborative endeavor intended to assess the effectiveness of
security policies in operational environments. Oversight visits have allowed for
trend analysis and program improvements.


Specific Discrepancy Reports


During the self-inspection process, DoD Components reported various discrepancies
with corrective action taken or planned.         The following are the most common
discrepancies discovered:


       •     missing overall classification on the top, bottom, front, and the back of
             the classified document;

       •     missing portion markings;

       •     electronic media not properly marked;




                                  DODIG-2013-142 | 53
                                                                             Appendix A



       •   end-of-day checks not conducted;

       •   multiple sources, but these sources are not listed;

       •   improper creation and marking of classified products; and

       •   point/talking papers containing classified information improperly
           marked.

Successful Practices


DoD Components identified best practices, as required in DoD policy, as follows:


       •   using SharePoint to make available all information Security Managers
           need to manage their program and share unit best practices;

       •   creating and using an Electronic Security Manager Handbook;

       •   providing and maintaining open communications between different
           levels of management structure within the organization;

       •   establishing online training tools to improve ability to track completion
           of training requirements;

       •   issuing the recently-developed quarterly Security Newsletter that
           provides informational security articles, security updates, and upcoming
           security courses;

       •   maintaining an automated security incident reporting program;

       •   maintaining complete inventories of all classified documents and
           electronic media to provide precise tracking of classified holdings;

       •   developing organization derivative classification training;

       •   reviewing the process for public release of information;

       •   maintaining a central Security Education and Awareness mailbox with
           all questions answered by close of business;




                                DODIG-2013-142 | 54
                                                                                    Appendix A



        •   tracking of mandatory annual security and derivative classifier training
            by the Human Resources Information System of Record, which enhances
            better oversight of training completion rates; and

        •   developing a comprehensive security database, which reflects final
            adjudication and investigation of security incidents.


Conclusion
We found that the description, assessment and summary, specific discrepancy reports,
and successful practices offered a comprehensive picture of DoD’s security program
management efforts. Additionally, based on our review of each entity’s self-inspection
report, interviews, and questionnaire analysis, the DoD self-assessment report’s
information does provide an excellent opportunity to understand weaknesses,
opportunities, and successful practices for program improvement.


Observation D. Intelligence Community Cross-
Cutting Issues
We found instances where dissemination control markings were incorrectly applied,
which could unnecessarily restrict the sharing of information. However, we also found
that DoD policy states that dissemination of information regarding intelligence sources,
methods, or activities should be consistent with directives that the DNI issued. DNI
Directives are electronically available to DoD personnel, as is the CAPCO Register and
Marking Implementation Manual, 8 on the Joint Worldwide Intelligence Communications
System (JWICS) and SECRET Internet Protocol Router Network (SIPRNET).

For IC components within the DoD, this section will focus on the organization’s ability to
adequately carry out appropriate ODNI-issued IC guidance related to classification
management, and classification and control markings. It will also determine if ODNI-
issued IC policies, procedures, rules, regulations, or management practices may have, or
are contributing to, persistent misclassification; or have resulted in the lack of access for
DoD programs to ODNI-produced classified documents or information. The section is
also intended to inform and facilitate an understanding about whether –- and the extent
to which –- national intelligence information is being provided to appropriate parties
without delay or unnecessary restrictions.

8
  The [Controlled Access Program Coordination Office] CAPCO Register and Manual includes all
markings authorized for use with classified or unclassified intelligence information, as
applicable, to communicate one or more of the following: classification type and level, controlled
access programs, foreign government information, dissemination controls, disclosure and
release determinations, and other warnings.



                                    DODIG-2013-142 | 55
                                                                                    Appendix A




DoD Policy Related to Intelligence Community Guidance
Defense Intelligence Components and personnel working with intelligence and
intelligence-related information under DNI’s purview refer to ICD 710, the “Authorized
Classification and Control Markings Register” -- the “CAPCO Register” -- and the IC
Classification and Control Markings Implementation Manual for guidance on marking
and dissemination of classified and unclassified intelligence information. The CAPCO
Register and associated Marking Implementation Manual are available electronically on
the JWICS and SIPRNET. IC-wide guidance and criteria (i.e., ICDs, Intelligence
Community Policy Guidance, and CAPCO Register and Manual, etc) are referenced in
DoD policy.

Certain dissemination control markings are authorized for use only on intelligence
information. Among these are “NOFORN,” 9 “RELIDO,” 10 and “IMCON.” 11 DoD
Intelligence Components refer to policy and implementing guidance that the DNI issued
on marking intelligence and intelligence-related information and products under the
DNI’s purview. Information on intelligence control markings is in DoD Manual 5200.01,
Volume 2, Appendix 2, February 24, 2012, to help those involved in other DoD activities
to understand the meaning and use of such markings.

Based on our analysis, interviews, and response to questionnaires, the NOFORN
dissemination control marking was seemingly the most misunderstood dissemination
control marking, with the possibility of having a detrimental impact on sharing with
coalition partners. NOFORN is applied to classified intelligence that may not be released
in any form to foreign governments, foreign nationals, foreign organizations, or non-U.S.
citizens without permission from the information’s originator; however, in some
instances, legitimately releasing the information to foreign partners is not carefully
considered.




9
  NOFORN (Not Releasable to Foreign Nationals) is applied to classified intelligence that may not
be released in any form to foreign governments, foreign nationals, foreign organizations, or non-
U.S. citizens without permission of the information’s originator.
10
   RELIDO (Releasable by Information Disclosure Official) is a dissemination control marking that
may be applied to national intelligence information to indicate that the originator has authorized
Designated Intelligence Disclosure Officials, or their designee, to make further release
determinations in accordance with existing foreign disclosure policy and procedures.
11
   IMCON (Controlled Imagery) is used to protect sources and analytic methods associated with
the geospatial intelligence discipline that are particularly vulnerable to countermeasures, and if
disclosed or released, could negate or measurably reduce the effectiveness of those
methodologies.



                                    DODIG-2013-142 | 56
                                                                            Appendix A



NOFORN’s overuse was also mentioned, with one respondent saying that personnel
sometimes placed NOFORN with no supporting requirement aimed at ensuring their
products are not released to foreigners. Additional comments on NOFORN’s use cited
the constraints it presented when organizations needed to share information with non-
U.S. allies. In one instance, a “Foreign Disclosure Officer” was asked to release the
required information. Once approval was secured, the information was shared only to
discover that the partners already had the information and had undergone a similar
process with their “Foreign Disclosure Officer” to pass the information to the United
States.


One respondent acknowledged that the reflexive marking of a SECRET document with
NOFORN was a problem, citing a concern that some people believe that without
NOFORN, information was automatically shared with partner nations. The respondent
said that personnel did not realize that SECRET information is automatically not
released and that mechanisms (e.g., tetragraphs) exist to regulate the release of
information without needing to apply the additional control of a NOFORN caveat. The
“conflicting guidance from the Intel community” was also cited as a concern, resulting in
adding confusing marking requirements.


Reflecting the above comments, 26 percent of derivative classifiers that were
questioned identified the unnecessary use of dissemination control markings. A small
number (five percent) said that dissemination control markings prevented the release
of information to stakeholders or persons with a verified need-to-know.


Conclusion
We found instances where dissemination control markings were incorrectly applied,
which could cause unnecessary restriction of information sharing. However, we also
found that DoD policy addressing dissemination of information regarding intelligence
sources, methods, or activities, was consistent with DNI-issued directives.          DNI
directives are electronically available, as is the CAPCO Register and Marking
Implementation Manual, on JWICS and SIPRNET.            Because dissemination control
markings of intelligence information are the DNI’s purview, we will monitor and
comment further for the 2016 report under P.L. 111-258.




                                DODIG-2013-142 | 57
                                                                              Appendix B




Appendix B

Computer-Processed Data
We did not rely on computer-processed data to perform this evaluation.


Use of Technical Assistance
During the evaluation, we requested and received technical assistance from the DoD
Office of Inspector General Quantitative Methods Division (QMD). We worked with
QMD during our planning phase.


Prior Coverage
In the last seven years, the GAO issued one report on DoD’s Information Security
program. Unrestricted GAO reports are at http://www.gao.gov. The DoD OIG has
issued three reports discussing security within the DoD.         DoD OIG reports are at
http://www.dodig.mil/Ir/reports.


You can obtain information about the Department of Defense Office of Inspector General
from DoD Directive 5106.01, “Inspector General of the Department of Defense (IG
DoD),” April 20, 2012; and DoD Instruction 7050.03, “Office of the Inspector General of
the Department of Defense Access to Records and Information,” March 22, 2013. Our
website is www.dodig.mil.


GAO
GAO Report No. GAO-06-706, “DoD Can More Effectively Reduce the Risk of
Classification Errors,” June 30, 2006.


DoD OIG
DoD OIG Report No. 10-INTEL-09, “Assessment of Security Within the Department of
Defense: Tracking and Measuring Security Costs,” August 6, 2010.


DoD OIG Report No. DoDIG-2012-001, “Assessment of Security Within the Department
of Defense: Training, Certification, and Professionalization,” October 6, 2011.


DoD OIG Report No. DoDIG-2012-114, “Assessment of Security Within the Department
of Defense: Security Policy,” July 27, 2012.




                                  DODIG-2013-142 | 58
            Center for Development of Security Excellence (CDSE) Course Offerings




Center for Development of Security
Excellence (CDSE) Course Offerings

DoD’s CDSE offers several different activities designed to train and educate those
charged with original and derivative classification duties. CDSE’s eLearning “Original
Classification Course” is 90 minutes long and provides the policy guidance for, and
purpose of, original classification. The course defines original classification, identifies
OCA requirements and qualifications, reviews the six steps of the original classification
decision process, discusses original classification limitations and prohibitions, explains
the basis for determining classification levels and duration, and lists the authorized
means for providing classification guidance. The target audience for this course is DoD
military, civilian, and contractor personnel who propose, prepare, develop, or help with
original   classification   decisions.      Information     on    this   course    is   at:
http://cdse.edu/catalog/elearning/IF102.html.


In addition to the eLearning course, CDSE also has a downloadable “Original
Classification Authority Desktop Reference Guide,” to assist the same target audience
with each of the six steps involved in the original classification process. That document
is on the CDSE job aids web page at:
http://cdse.edu/documents/cdse/oca-desktop-reference.pdf.


CDSE also offers a Security Short titled “Requirements for OCAs,” which provides an
overview of the changes for OCAs resulting from the issuing of E.O. 13526. It includes a
brief review of the six steps of the original classification process and highlights the
mandatory annual training requirement, as well as sanctions that can be imposed for
failure to timely complete that training.            The short can be viewed at:
http://cdse.edu/shorts/information-security.html#.


Original Classification is also discussed in two of CDSE’s instructor-led courses; the
“DoD Security Specialist Course,” and the “Information Security Management Course.”




                                 DODIG-2013-142 | 59
            Center for Development of Security Excellence (CDSE) Course Offerings




For derivative classifiers, CDSE offers a two-hour eLearning course titled “Derivative
Classification” that explains how to derivatively classify national security information
from a classification management perspective. The course discusses the responsibilities
associated with derivatively classifying information, describes the process and methods
for derivatively classifying information, identifies authorized sources to use when
derivatively classifying information, and explains how to apply authorized sources
through derivatively classifying information based on the concepts of “contained in,”
“revealed by,” and “compilation.” The target audience for this course is DoD military,
civilian, and contractor personnel responsible for derivatively classifying national
security     information.            Information      on     this     course      is     at:
http://cdse.edu/catalog/elearning/IF103.html.       In addition to accessing the course
through our Learning Management System (Security Training, Education, and
Professionalization Portal –- STEPP), this course is available for access on an outside
website     that     does      not     require     registration.        The      link    is:
http://cdsetrain.dtic.mil/derivative/.


CDSE is also developing a “Derivative Classification Refresher Course” that is expected
to be launched near the first part of FY 2014. The course will serve as a tool for
derivative classifiers to obtain the required biennial training to maintain their
derivative classification duties.


In addition to the eLearning course, CDSE also has a downloadable “Derivative
Classification Training Guide” to assist the same target audience with understanding the
derivative classification process. The guide is on the CDSE job aids web page at:
http://cdse.edu/documents/cdse/DerivativeClassification.pdf.


In the area of classification conflicts, CDSE offers a 30-minute eLearning course titled
“Classification Conflicts and Evaluations” that gives a broad overview of the
classification challenge process. Students examine the process for formal challenges to
classification decisions, the role of the Interagency Security Classification Appeals Panel,
and the process for mandatory review. Information on that course can be seen at:
http://cdse.edu/catalog/elearning/IF110.html.


The Course and Product Book has been updated and provides the latest CDSE course
offerings. The Course and Product Book is at:
http://www.cdse.edu/documents/cdse/courses-products-Aug2013.pdf



                                    DODIG-2013-142 | 60
            Center for Development of Security Excellence (CDSE) Course Offerings




The link to the student guides for CDSE courses, which includes the updates for E.O.
13526 and DoD Manual 5200.01, Volumes 1 through 4, can be accessed once you log
into a STEPP account at:
https://stepp.dss.mil/Sumtotal82/app/taxonomy/learnerSearch/LearnerSearch.aspx?
RootNodeID=-1&NodeID=5452&UserMode=0




                                DODIG-2013-142 | 61
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                           703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
